TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Implementation of the Return Preparer
                       Visitation Project Was Successful,
                       but Improvements Are Needed to
                           Increase Its Effectiveness



                                           June 29, 2012

                              Reference Number: 2012-30-068




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                    HIGHLIGHTS


IMPLEMENTATION OF THE RETURN                           As part of this review, TIGTA conducted a
PREPARER VISITATION PROJECT WAS                        survey of paid preparers who were visited by
SUCCESSFUL, BUT IMPROVEMENTS                           revenue agents as part of the RPVP during
ARE NEEDED TO INCREASE ITS                             FY 2010. While paid preparers generally had a
                                                       positive view of the revenue agent visitations,
EFFECTIVENESS
                                                       70 percent of respondents to the survey stated
                                                       they would not change the way they prepared
                                                       tax returns as a result of the visit.
Highlights                                             TIGTA evaluated the methodology used to
Final Report issued on June 29, 2012                   select paid preparers and determined that those
                                                       visited may not have benefited the most from an
Highlights of Reference Number: 2012-30-068            educational visit. Based on the survey
to the Internal Revenue Service Director, Return       responses, several paid preparers remarked that
Preparer Office.                                       the use of IRS resources to visit their office was
                                                       wasteful because their continuing professional
IMPACT ON TAXPAYERS                                    education requirements were much more
The role paid tax return preparers (hereafter          extensive than the information presented by the
referred to as paid preparers) play on voluntary       revenue agents. TIGTA also determined that
compliance in the United States has become             the RPVP did not have performance measures
increasingly important. Return Preparer                or tracking procedures to successfully evaluate
Visitation Project (RPVP) management was               its effectiveness.
tasked with developing a methodology for               WHAT TIGTA RECOMMENDED
revenue agents to visit paid preparers.
However, without a process to select paid              TIGTA recommended that the Director, Return
preparers who have a history of preparing              Preparer Office, ensure the RPVP uses
incorrect tax returns, the accuracy of taxpayer        data-driven selection criteria to specifically
returns as well as taxpayer compliance with the        identify paid preparers who filed tax returns with
tax laws could diminish.                               errors to make certain the most egregious paid
                                                       preparers are receiving educational and
WHY TIGTA DID THE AUDIT                                enforcement visitations. The Director should
This audit was initiated because the IRS               also develop specific performance measures
included objectives in its Strategic Plan for          and internal controls that can be used to assess
Fiscal Years (FY) 2009–2013 to strengthen              the impact of the RPVP on the paid preparer
partnerships with tax practitioners and ensure         community. This effort should include a process
paid preparers and other third parties adhere to       to monitor and track the behavior of paid
professional standards and follow the law. The         preparers visited to determine whether the
overall objective of this review was to evaluate       quality and accuracy of tax returns improved.
the effectiveness of the IRS’s efforts to conduct      The IRS agreed with both recommendations and
visitations to paid preparers to improve the           stated that it had already begun implementation.
accuracy and quality of filed tax returns.             The IRS concurred that over time both
WHAT TIGTA FOUND                                       recommendations will help to improve the quality
                                                       and accuracy of filed tax returns as well as
Our analyses of IRS data showed that the RPVP          heighten paid preparers’ awareness of their
issued letters to more than 10,000 paid                responsibilities.
preparers, and revenue agents completed
2,404 visits, or 96 percent of the FY 2010 RPVP
goal. In addition, TIGTA found that in FY 2011
the RPVP issued letters to more than 10,000 paid
preparers and conducted 2,498 visitations, or
nearly 100 percent of its goal.
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                June 29, 2012


 MEMORANDUM FOR DIRECTOR, RETURN PREPARER OFFICE


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Implementation of the Return Preparer Visitation
                                 Project Was Successful, but Improvements Are Needed to Increase Its
                                 Effectiveness (Audit # 201130005)

 This report presents the results of our review to evaluate the effectiveness of the Internal
 Revenue Service’s efforts to conduct visits to paid tax return preparers1 to improve the accuracy
 and quality of filed tax returns. This review was included in our Fiscal Year 2011 Annual Audit
 Plan and addresses the major management challenge area of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by
 the report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (213) 894-4470 (Ext. 128).




 1
     See Appendix VI for a glossary of terms.
                                   Implementation of the Return Preparer Visitation
                                     Project Was Successful, but Improvements
                                      Are Needed to Increase Its Effectiveness




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Revenue Agents Successfully Completed Visitations to
          Paid Preparers ............................................................................................... Page 3
          Paid Preparers Generally Had a Positive View of Return
          Preparer Visitations ....................................................................................... Page 4
          Selection Methodology May Not Have Identified Paid
          Preparers Most in Need of Educational Visits .............................................. Page 5
                    Recommendation 1:........................................................ Page 8

          Performance Measures and Additional Controls Are
          Needed to Improve the Return Preparer Visitation Project ...................... ... Page 8
                    Recommendation 2:........................................................ Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Example of a Fiscal Year 2012 Return Preparer
          Visitation Project Letter Sent to Selected Paid Preparers ............................. Page 15
          Appendix V – Example of Survey Sent to Paid Preparers............................ Page 17
          Appendix VI - Glossary of Terms ................................................................ Page 19
          Appendix VII – Management’s Response to the Draft Report ..................... Page 21
       Implementation of the Return Preparer Visitation
         Project Was Successful, but Improvements
          Are Needed to Increase Its Effectiveness




                Abbreviations

FY        Fiscal Year
IRS       Internal Revenue Service
RPVP      Return Preparer Visitation Project
                              Implementation of the Return Preparer Visitation
                                Project Was Successful, but Improvements
                                 Are Needed to Increase Its Effectiveness




                                            Background

In Calendar Year1 2011, the Internal Revenue Service (IRS) processed approximately 84 million
individual Federal income tax returns prepared by paid tax return preparers (hereafter referred to
as paid preparers). While the United States has one of the highest tax compliance rates in the
world at 83.1 percent, every year more than half of all taxpayers pay someone else to prepare
their income tax returns. As a result, the paid preparers’ impact on voluntary tax compliance in
the United States has become increasingly important. The IRS acknowledged this trend with the
inclusion of the following objectives in its strategic plan for Fiscal Years (FY) 2009–2013:
         Strengthen partnerships with tax practitioners, paid preparers, and other third parties in
          order to ensure effective tax administration.
         Ensure that all tax practitioners, paid preparers, and other third parties in the tax system
          adhere to professional standards and follow the law.
Despite the significant role paid preparers play in helping taxpayers fulfill their tax obligations,
little data existed regarding the quality of services they are providing to their clients. In
December 2009, the IRS Commissioner published the Return Preparer Review,2 a six-month
comprehensive study of the paid preparer industry. The review process was intended to be an
open and transparent discussion of the issues with the paid preparer community, the associated
industry, consumer advocacy groups, and the American public. The findings and
recommendations of the Return Preparer Review were intended to better leverage the paid
preparer community with the twin goals of increasing taxpayer compliance and ensuring uniform
and high ethical standards of conduct for paid
preparers.
                                                             The IRS concluded that implementing
With a majority of U.S. households using a paid               higher standards would significantly
preparer to help prepare and file their tax returns,          enhance protections and service for
the IRS concluded that implementing higher                   taxpayers, increase confidence in the
standards would significantly enhance protections                tax system, and result in greater
                                                               taxpayer compliance with tax laws.
and service for taxpayers, increase confidence in
the tax system, and result in greater taxpayer
compliance with tax laws.
On January 7, 2010, the IRS announced the development of the Return Preparer Visitation
Project (RPVP). This effort is one of the IRS’s first steps to improve the accuracy and quality of
filed tax returns as well as to heighten awareness of paid preparer responsibilities. The initial

1
    See Appendix VI for a glossary of terms.
2
    IRS Pub. 4832, Catalog Number 54419P (Rev. Dec. 2009).
                                                                                                 Page 1
                            Implementation of the Return Preparer Visitation
                              Project Was Successful, but Improvements
                               Are Needed to Increase Its Effectiveness



rollout of the RPVP occurred during FY 2010, with the intention that the RPVPs will be
conducted on an annual basis.
This review was performed at the Small Business/Self-Employed Division Headquarters in New
Carrollton, Maryland,3 and the Wage and Investment Division Headquarters in Atlanta, Georgia,
during the period August 2010 through November 2011. Onsite reviews were performed at the
IRS Examination field offices in Decatur, Georgia; Boston, Massachusetts; and Fairfield and
Springfield, New Jersey. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




3
 The IRS Return Preparer Office was created in FY 2010 to improve taxpayer compliance by providing
comprehensive oversight and support to tax professionals. Ownership of the RPVP was transferred from the
Small Business/Self-Employed Division’s Examination Policy to the Return Preparer Office in October 2011.
                                                                                                        Page 2
                            Implementation of the Return Preparer Visitation
                              Project Was Successful, but Improvements
                               Are Needed to Increase Its Effectiveness




                                    Results of Review

Revenue Agents Successfully Completed Visitations to Paid
Preparers
During FY 2010, RPVP management4 began to implement the recommendations the IRS
Commissioner announced as part of the Return Preparer Review. To determine who would
receive informational letters as well as revenue agent visitations, RPVP management requested
that Wage and Investment Research and Analysis identify paid preparers who had prepared more
than 25 tax returns during the first nine months of Processing Year 2009, with schedules on
which the IRS typically sees errors (i.e., Form 1040, U.S. Individual Income Tax Return, with a
Schedule A, Itemized Deductions; Schedule C, Profit or Loss From Business; or Schedule E,
Supplemental Income and Loss). The FY 2010 RPVP goal was to mail 10,000 informational
letters5 and to have revenue agents complete field visits to 2,500 of the identified paid preparers
between January 25 and February 5, 2010. The letters informed the paid preparers that they may
be visited by a revenue agent and detailed the consequences of filing incorrect tax returns. For
example, paid preparers were advised that they could face monetary penalties, suspension,
expulsion from participation in IRS electronic filing, or civil injunctions barring them from
preparing tax returns.
Our results showed the RPVP mailed educational letters to more than 10,000 paid preparers and
performed a majority of the field visits in a timely manner. The field visits to paid preparers
were performed by revenue agents who were instructed to discuss many of the issues mentioned
in the letter. Our analysis of the project closures6 provided by RPVP management confirmed that
during the FY 2010 RPVP, revenue agents completed 2,404 paid preparer visitations, or
96 percent of their goal.
In preparation for the FY 2011 RPVP, the IRS again issued more than 10,000 letters to paid
preparers stating that they may be visited by a revenue agent during the 2011 Filing Season to
further discuss their responsibilities as a paid preparer. The IRS’s goal was for revenue agents to
complete field visits to 2,500 of the identified paid preparers between January 1 and April 30,
2011. During these visits, revenue agents were instructed to inspect tax returns and all relevant
supporting documents and records of the clients of paid preparers to ensure compliance with




4
  RPVP management refers to the Small Business/Self-Employed Division’s Examination Policy management.
5
  See Appendix IV for an example of a letter that is currently being sent to paid preparers by the RPVP.
6
  A closure is defined as a contact or an attempted contact with a tax preparer that has been closed.
                                                                                                      Page 3
                               Implementation of the Return Preparer Visitation
                                 Project Was Successful, but Improvements
                                  Are Needed to Increase Its Effectiveness



requirements subject to penalty under Internal Revenue Code Section 6695.7 According to
RPVP management, revenue agents successfully completed 2,498 visits to selected paid
preparers, or nearly 100 percent of their goal.

Paid Preparers Generally Had a Positive View of Return Preparer
Visitations
As part of our review, we conducted a survey8 of paid preparers who were visited by revenue
agents during the FY 2010 RPVP. We selected a statistically valid random sample9 of 247 paid
preparers from the population of 2,404 paid preparer visitations.10 The purpose of the survey was
to solicit the opinions of paid preparers to determine whether the IRS accomplished its goal of
providing substantive information and guidance during the RPVP visits. The survey was
conducted during November and December 2010.
Based on our survey results, paid preparers generally had a favorable view of the revenue agent
visitations. Specifically:
        65 percent of the respondents believed that the visits were a positive experience.
        62 percent of the respondents believed that the visits were helpful and/or informative.
In addition, a majority of the paid preparers we surveyed believed that the revenue agents who
conducted the visitations were both professional and knowledgeable about the topics discussed.
Figure 1 provides the detailed survey results.




7
  This code section specifically deals with other assessable penalties with respect to the preparation of tax returns for
other persons.
8
  See Appendix V for an example of the survey that was sent to the paid preparers.
9
  We used the following criteria for our statistically valid random sample of paid preparers: 95 percent confidence
level, 50 percent error rate, and ± 6 percent precision rate. See Appendix I for additional information.
10
   The survey results for all figures presented in the report may not total 247 due to paid preparers either not
responding to certain questions or entering multiple responses where requested/accepted.
                                                                                                                 Page 4
                            Implementation of the Return Preparer Visitation
                              Project Was Successful, but Improvements
                               Are Needed to Increase Its Effectiveness



                Figure 1: Paid Preparer Assessment of Revenue Agent
               Professionalism and Knowledge During the FY 2010 RPVP




  Source: Results of the Treasury Inspector General for Tax Administration’s survey of paid preparers
  visited during the FY 2010 RPVP.

Based on the survey results, it appears that the IRS successfully provided outreach to the paid
preparers selected as part of the RPVPs. However, improvements to the administration of the
RPVPs are necessary to ensure that the IRS’s goals of improving the quality and accuracy of
filed tax returns and heightening the paid preparers’ awareness of their responsibilities are met.

Selection Methodology May Not Have Identified Paid Preparers Most
in Need of Educational Visits
We evaluated the FY 2010 RPVP methodology used to select the 10,000 paid preparers who
received a letter as well as the 2,500 who were selected for a visitation by a revenue agent. Our
results showed a risk-based scoring system was developed to identify noncompliant patterns in
the population of all tax returns filed by paid preparers in order to target which paid preparers
should receive a letter or a visit. This process ultimately produced a list of paid preparers who
filed high volumes of tax returns with schedules that traditionally have high error rates, rather
than paid preparers identified as filing tax returns with actual errors.
We asked Wage and Investment Research and Analysis officials why they did not use paid
preparers who filed tax returns with errors as the selection criteria for the educational visits.
                                                                                                        Page 5
                              Implementation of the Return Preparer Visitation
                                Project Was Successful, but Improvements
                                 Are Needed to Increase Its Effectiveness



They explained that the decision by RPVP management to make education the focal point of the
visits was made after the paid preparers had already been selected. However, due to the limited
time remaining to initiate the project, RPVP management believed it was necessary to proceed
with its implementation.
Because the visitations were intended to be educational, we believe RPVP management should
have considered additional criteria in their selection methodology, such as paid preparers who
received error notices from the IRS. The IRS issues math error notices to inform taxpayers and
paid preparers when an error on the tax return is identified during processing. For example, the
IRS will send a math error notice when the taxpayer claims the Earned Income Tax Credit but
fails to provide documentation supporting the credit. By not ensuring that paid preparers who
filed tax returns with errors were selected, RPVP management accepted the risk that revenue
agents may have unnecessarily visited and increased the burden on compliant paid preparers
during the filing season.11
Additionally, paid preparers contacted through our survey indicated that they did not necessarily
believe they should have been selected for a visit by a revenue agent because they already have
continuing education requirements to maintain their professional certifications (e.g., certified
public accountant, attorney, etc.). Our survey results showed that 241 (98 percent) of the
247 paid preparers stated that they completed continuing education courses and/or educated
themselves regarding tax law changes. Several certified public accountants remarked that the
use of IRS resources to visit their office was wasteful because their continuing professional
education requirements were much more extensive than
the information presented by the revenue agents. Our
assertion that educational visits may have been                    Seventy percent of paid
unwarranted for many of the paid preparers selected by         preparers surveyed stated that
this methodology is supported by our survey results. Of       they would not change the way
the 245 paid preparers who responded to a question            they  do business or prepare tax
                                                                returns as a result of the IRS
regarding the effectiveness of the visits, 171 (70 percent)
                                                                      educational visits.
stated that they would not be making any changes to the
way they do business or prepare tax returns as a result of
being visited by a revenue agent.




11
  There could have been paid preparers who filed tax returns with errors that received a letter and/or visitation even
though this criterion was not included in the selection methodology.
                                                                                                              Page 6
                               Implementation of the Return Preparer Visitation
                                 Project Was Successful, but Improvements
                                  Are Needed to Increase Its Effectiveness



Insufficient enhancements were made to the selection methodology for the
FY 2011 RPVP
The selection methodology was revised for the FY 2011 RPVP and included enhanced filters
used for the Risk Assessment Scoring Tool and additional filters to aid in the identification of
paid preparers using false or inaccurate Employer Identification Numbers. The purpose of this
change was to increase the IRS’s ability to address “ghost preparers” and also to respond to the
practitioner community’s concerns regarding paid preparers who do not sign the tax returns that
they prepare. However, our review of the selection methodology determined that no
enhancements were made to identify paid preparers who filed “abusive” or egregious tax returns.
Instead, RPVP management continued to use the Risk Assessment Scoring Tool to identify paid
preparers who filed high volumes of tax returns with schedules that traditionally have high error
rates.
The National Taxpayer Advocate and representatives of the paid preparer community expressed
concerns in news articles regarding the selection process. They stated that the IRS should have
targeted paid preparers who filed tax returns with errors rather than those who filed a high
volume of tax returns with high-risk tax law issues. For example, in their letter to the
Commissioner, Small Business/Self-Employed Division, the American Institute of Certified
Public Accountants stated, “As we noted in our October 29, 2010, letter on the FY 2011 Preparer
Letters and Visitation Program, we believe office visits to return preparers should only be done
when there is a reasonable or clear suspicion that the tax return preparer is not in compliance
with his or her responsibilities as a preparer.”
In addition, the Treasury Inspector General for Tax Administration’s concerns regarding the
overly generalized selection criteria were also supported by the IRS Office of Program
Evaluation and Risk Analysis’ April 2011 review12 of the RPVP selection methodology. The
Office of Program Evaluation and Risk Analysis was tasked with performing an independent
review of the processes used to develop the RPVP filters and assign risk scores to paid preparers.
This included suggesting methods for evaluating the RPVP filters in an effort to improve the
final selection process. During its review, the Office of Program Evaluation and Risk Analysis
determined that the Risk Assessment Scoring Tool provided “no true measure of egregiousness”
in the behavior of paid preparers selected for FYs 2010 and 2011 RPVP visits.

Insufficient enhancements were made to the selection methodology for the
FY 2012 RPVP
For the FY 2012 RPVP, the IRS used the same Risk Assessment Scoring Tool that focused on
paid preparers who filed high volumes of tax returns that traditionally have high error rates.
Although the IRS added multiple compliance visit initiatives such as ensuring paid preparers


12
     IRS, Service Wide Return Preparer Filter Review (Apr. 2011).
                                                                                           Page 7
                         Implementation of the Return Preparer Visitation
                           Project Was Successful, but Improvements
                            Are Needed to Increase Its Effectiveness



complied with the electronic filing requirements and their responsibilities regarding Preparer Tax
Identification Numbers, we found no significant enhancements to the selection methodology to
identify paid preparers who actually filed “abusive” or egregious tax returns. In addition, paid
preparers selected for site visitations by revenue agents were based on the following criteria.
      Paid preparers who were rated as “high risk” on the Risk Assessment Scoring Tool and
       had received a RPVP letter in the prior two years.
      Paid preparers who were selected for a site visitation during the FY 2011 RPVP but were
       not visited for various reasons, such as unable to locate, misidentified, or a discontinued
       criminal investigation.
      Paid preparers who were using an invalid Volunteer Income Tax Assistance or Tax
       Counseling for the Elderly Site Identification Number.
Although some slight changes were made to improve the methodology used to select paid
preparers over the past three years, it is questionable whether or not those visited by revenue
agents during the RPVPs would have benefited the most from an educational visit. We believe
the IRS should enhance its selection methodology and focus its limited resources to visit the
most “egregious” paid preparers. Without making additional changes to its methodology to
select paid preparers with a history of preparing problematic tax returns, the IRS cannot ensure
the results from the RPVPs will help it meet its strategic goals of increasing the quality and
accuracy of tax returns and ensuring that paid preparers adhere to professional standards.

Recommendation
Recommendation 1: The Director, Return Preparer Office, should ensure that the RPVP uses
data-driven selection criteria to specifically identify paid preparers who filed tax returns with
errors to make certain the most egregious paid preparers are receiving educational and
enforcement visitations.
       Management’s Response: IRS management agreed with this recommendation
       and stated that the Return Preparer Office is in the process of developing data-driven
       selection criteria for the FY 2013 visitation program.

Performance Measures and Additional Controls Are Needed to
Improve the Return Preparer Visitation Project
In FYs 2010 and 2011, the principal measurable goal for the RPVPs was the number of
visitations conducted. In both years, the IRS set a goal of conducting visits with approximately
2,500 paid preparers. However, the IRS had no corresponding goal for measuring the impact
that these projects had on improving the accuracy and quality of tax returns filed by paid
preparers.

                                                                                           Page 8
                           Implementation of the Return Preparer Visitation
                             Project Was Successful, but Improvements
                              Are Needed to Increase Its Effectiveness



According to the Standards for Internal Control in the Federal Government13 and the
Government Performance and Results Act of 1993,14 management should establish and review
performance measures as it is critical that there is a method to measure the progress and expected
outcome of goals and actions. Performance measures should assess not only relevant outputs
(e.g., number of visits completed), but also program outcomes (e.g., the impact or effectiveness
of the visits on tax return preparation and compliance). Further, the Standards for Internal
Control in the Federal Government requires the establishment of procedures to ensure all
transactions are accurately recorded. This helps to ensure the effectiveness and efficiency of
operations and that planned objectives are being met. As a non-revenue enforcement activity
that promotes compliance yet does not focus primarily on tax revenue, the IRS Strategic Plan for
FYs 2009–2013 requires that these activities be tracked under the section entitled How Will We
Measure Our Performance.
We determined that the RPVPs do not have performance measures, tracking procedures, or a
quality review process to successfully evaluate the effectiveness of these projects. The FY 2010
RPVP was implemented within a limited time period and, as a result, the IRS began the project
prior to developing strategies or a process to evaluate its results. However, this does not explain
why the IRS still has not developed a strategy identifying how it plans to measure whether the
current or future RPVPs will successfully achieve the goal of improving the accuracy and quality
of tax returns filed by paid preparers.
During the RPVP visits, revenue agents recorded more than 40 information items on a paper
check sheet based on paid preparer responses. Revenue agents completed a check sheet for all of
the selected paid preparers, including those who refused to meet with the revenue agent or could
not be located. Upon completion of the visitation, revenue agents manually inputted the
information from the check sheet into a database. The following are examples of information
captured by revenue agents and transcribed into the database:
      Personal information concerning the paid preparer.
      Success of the contact with the paid preparer.
      Topics discussed during the visit.
      Number of hours spent on the entire visitation process.
However, the information recorded does not provide quantifiable data that could be used to
develop performance measures and evaluate how the IRS could use the results to improve the
quality and accuracy of tax returns.


13
   Government Accountability Office (formerly the General Accounting Office), GAO/AIMD-00-21.3.1, Standards
for Internal Control in the Federal Government (Nov. 1999).
14
   Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                    Page 9
                               Implementation of the Return Preparer Visitation
                                 Project Was Successful, but Improvements
                                  Are Needed to Increase Its Effectiveness



With the addition of measures and targets, the IRS would have a means to evaluate performance
and monitor the long-term progress toward achieving established goals. For example, the IRS
should consider completing the following steps that could be used to evaluate the RPVP:
          Develop a research methodology to assess the results of the visits. This approach
           includes tracking the paid preparers to determine if their behavior changed as a result of
           the visit.
          Track the number of referrals to Criminal Investigation when there is evidence of
           fraud, Program Action Cases when actions against paid preparers are warranted, and
           enforcement actions when there are violations of Treasury Department Circular
           No. 230.15
          Conduct post visitation surveys or exit interviews to analyze program performance and
           customer survey results. For example, we were advised by RPVP management that there
           was no established communications plan or process to obtain input or reaction from paid
           preparers who were visited that could be used to improve future RPVPs.
          Establish a process to generate management information reports that can be used for
           reviewing and comparing project results against established plans, goals, and objectives.
The IRS needs to demonstrate positive results to justify the continued use of resources to support
the RPVPs. Without clearly defined performance measures for the RPVPs, the IRS cannot
substantiate that expending limited resources to visit paid preparers is an effective tool that can
be used to help the IRS meet the long-term goals of its strategic plan.

Recommendation
Recommendation 2: The Director, Return Preparer Office, should develop objective,
quantifiable performance measures and a process to generate management information reports
that can be used to assess the impact of the RPVP on the paid preparer community. This effort
includes a process to monitor and track the behavior of paid preparers visited to determine
whether the quality and accuracy of tax returns improved.
           Management’s Response: IRS management agreed with this recommendation and
           stated that the Return Preparer Office is in the process of developing a statistically valid
           controlled test design plan for the visitation program. This plan will include the strategic
           measures that will be used to assess the effectiveness of the visitation program.




15
     Regulations Governing Practice before the Internal Revenue Service (Rev. 8-2011).
                                                                                               Page 10
                                Implementation of the Return Preparer Visitation
                                  Project Was Successful, but Improvements
                                   Are Needed to Increase Its Effectiveness



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our objective was to evaluate the effectiveness of the IRS’s efforts to conduct visits to paid tax
return preparers1 to improve the accuracy and quality of filed tax returns. To accomplish our
objective, we:
I.         Determined whether the IRS had a process in place to measure the effectiveness of the
           FY 2010 RPVP.
           A. Interviewed IRS officials to determine FY 2010 RPVP goals and objectives and
              whether sufficient procedures and guidelines were provided to measure results.
           B. Determined how the IRS planned to use the results from paid preparer visits to
              increase the education of paid preparers and improve the accuracy of tax returns.
           C. Researched the IRS Internet and intranet for electronic documents related to the
              FYs 2010, 2011, and 2012 RPVPs.
           D. Reviewed RPVP internal documents. This included notes from team meetings,
              standard operating procedures, desk procedures, Power Point presentations, and any
              guidance issued to Small Business/Self-Employed Division area champions and
              revenue agents.
           E. Reviewed the RPVP briefings/reports documenting the results of the visits.
II.        Evaluated the methodology used by the RPVP management to determine how the
           10,000 paid preparers were selected to receive a letter and how the subset of paid
           preparers were selected for visits by revenue agents.
III.       Determined whether the RPVP management had a process to collect and ensure the
           accuracy of results revenue agents captured during visits to paid preparers.
           A. Reviewed procedures revenue agents used to capture the results from visits to paid
              preparers.
           B. Evaluated the database to determine whether the information captured could provide
              the IRS with information to measure the effectiveness of the FY 2010 RPVP.




1
    See Appendix VI for a glossary of terms.
                                                                                                Page 11
                              Implementation of the Return Preparer Visitation
                                Project Was Successful, but Improvements
                                 Are Needed to Increase Its Effectiveness



IV.      Determined whether the IRS had a process in place to capture feedback from paid
         preparers.
         A. Reviewed the process or procedures to capture feedback from the paid preparer
            community including those paid preparers who received letters and a visit.
         B. Evaluated the effectiveness of the FY 2010 RPVP by conducting a survey of paid
            preparers who were visited by revenue agents.
                  1. Obtained the database that captured the results of paid preparers visited by
                     revenue agents.
                  2. Selected a statistically valid random sample2 from a population of 2,404 paid
                     preparers who were visited by revenue agents during FY 2010.
                  3. Mailed cover letters and surveys to 400 selected paid preparers.
                  4. Quantified the results of 247 survey responses.
V.       Evaluated the IRS’s plan, process, and methodology to conduct the FYs 2010, 2011, and
         2012 RPVP.
         A. Discussed the IRS’s plans to complete visits in FY 2011.
         B. Evaluated the FY 2011 RPVP methodology used by Wage and Investment Research
            and Analysis to identify paid preparers who were selected to receive letters and visits.
         C. Compared the RPVP’s FYs 2010, 2011, and 2012 methodologies to identify any
            significant changes in goals, strategy, and objectives.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS procedures and processes for
planning, implementing, monitoring, and measuring RPVP operations and effectiveness. We
evaluated these controls by reviewing internal and external documents and policies, interviewing
management, reviewing paid preparer selection methodology, researching current criteria for
assessing Federal agency performance and improvement, and conducting a survey of visited paid
preparers.



2
  We used the following criteria for our statistically valid random sample of paid preparers: 95 percent confidence
level, 50 percent error rate, and ± 6 percent precision rate.
                                                                                                           Page 12
                        Implementation of the Return Preparer Visitation
                          Project Was Successful, but Improvements
                           Are Needed to Increase Its Effectiveness



                                                                                Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Jones, Director
Bryce Kisler, Director
L. Jeff Anderson, Audit Manager
Tina Parmer, Audit Manager
Nancy Van Houten, Lead Auditor
Paul Baker, Senior Auditor
Carol Gerkens, Senior Auditor
Kenneth Henderson, Senior Auditor
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                        Page 13
                       Implementation of the Return Preparer Visitation
                         Project Was Successful, but Improvements
                          Are Needed to Increase Its Effectiveness



                                                                      Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W
       Director, Return Preparer Office SE:RPO




                                                                            Page 14
       Implementation of the Return Preparer Visitation
         Project Was Successful, but Improvements
          Are Needed to Increase Its Effectiveness



                                                  Appendix IV

  Example of a Fiscal Year 2012 Return
Preparer Visitation Project Letter Sent to
        Selected Paid Preparers




                                                          Page 15
Implementation of the Return Preparer Visitation
  Project Was Successful, but Improvements
   Are Needed to Increase Its Effectiveness




                                                   Page 16
       Implementation of the Return Preparer Visitation
         Project Was Successful, but Improvements
          Are Needed to Increase Its Effectiveness



                                                   Appendix V

Example of Survey Sent to Paid Preparers




                                                          Page 17
Implementation of the Return Preparer Visitation
  Project Was Successful, but Improvements
   Are Needed to Increase Its Effectiveness




                                                   Page 18
                         Implementation of the Return Preparer Visitation
                           Project Was Successful, but Improvements
                            Are Needed to Increase Its Effectiveness



                                                                                  Appendix VI

                                Glossary of Terms

American Institute of Certified Public Accountants – A professional organization of
practicing certified public accountants. The “Institute” develops standards of practice for its
members and provides technical guidance and advice to both its members and governmental
agencies.
Area Champions – IRS employees who were responsible for selecting experienced revenue
agents to participate in the FYs 2010 and 2011 RPVPs. Area champions were given the
autonomy to select which paid preparers revenue agents would visit during the RPVPs from the
list provided by Wage and Investment Research and Analysis.
Calendar Year – A 12-consecutive-month period ending on December 31.
Criminal Investigation – Serves the American public by investigating potential criminal
violations of the Internal Revenue Code and related financial crimes in a manner that fosters
confidence in the tax system and compliance with the law.
Earned Income Tax Credit – A refundable Federal tax credit for low-income working
individuals and families.
Employer Identification Number – A unique nine-digit number used to identify a taxpayer’s
business account.
Enrolled Agents – These professionals pass an IRS examination or present evidence of
qualifying experience as a former IRS employee and have been issued an enrollment card.
Enrolled agents are the only taxpayer representatives who receive their right to practice from the
Federal Government.
Examination – Field examinations of individuals, partnerships, and corporations that occur
either at the taxpayer’s place of business or through interviews at an IRS office.
Filing Season – The period from January through mid-April when most individual income tax
returns are filed.
Fiscal Year – A 12-consecutive-month period ending on the last day of any month, except
December. The Federal Government’s fiscal year begins on October 1 and ends on
September 30.
Ghost Preparer – A paid preparer who did not identify or correctly identify himself or herself as
the individual responsible for preparing the tax return.


                                                                                            Page 19
                          Implementation of the Return Preparer Visitation
                            Project Was Successful, but Improvements
                             Are Needed to Increase Its Effectiveness



Math Error Notices – A process in which the IRS contacts taxpayers through the mail or by
telephone when it identifies mathematical errors or mismatches of taxpayer information that
would result in a tax change.
Paid Tax Return Preparers – Paid tax return preparers include certified public accountants,
attorneys, enrolled agents, enrolled actuaries, enrolled retirement plan agents, and unenrolled tax
return preparers.
Preparer Tax Identification Number – An identification number that all paid tax return
preparers must use on U.S. Federal tax returns or claims for a refund submitted to the IRS.
Processing Year – The calendar year in which tax returns and other tax data are processed.
Program Action Cases – Preparer investigations where clients of questionable paid preparers
are examined to determine whether preparer penalties and/or injunctive actions against the paid
preparers are warranted.
Revenue Agent – An employee in the Examination function who conducts face-to-face
examinations of more complex tax returns such as those for businesses, partnerships,
corporations, and specialty taxes.
Risk Assessment Scoring Tool – The practitioners included in the RPVP were selected by
applying a set of filters to tax returns filed by paid preparers. These filters were created using
characteristics of issues that were believed to be associated with egregious return preparation.
Collectively, these filters are referred to as the Risk Assessment Scoring Tool.
Site Identification Number – A unique number identifying which Volunteer Income Tax
Assistance or Tax Counseling for the Elderly site prepared a tax return.
Unenrolled Preparers – Unlicensed paid preparers/agents are individuals that range from those
who might receive extensive training to those with little or no training.




                                                                                             Page 20
        Implementation of the Return Preparer Visitation
          Project Was Successful, but Improvements
           Are Needed to Increase Its Effectiveness



                                                  Appendix VII

Management’s Response to the Draft Report




                                                           Page 21
Implementation of the Return Preparer Visitation
  Project Was Successful, but Improvements
   Are Needed to Increase Its Effectiveness




                                                   Page 22
Implementation of the Return Preparer Visitation
  Project Was Successful, but Improvements
   Are Needed to Increase Its Effectiveness




                                                   Page 23
